No. 20-1223

 

IN THE

Supreme Court of the Anited States

JOHNSON & JOHNSON AND
JOHNSON & JOHNSON CONSUMER INC.,

Petitioners,
Vv.
GAIL L. INGHAM, et al.,
Respondents.

On Petition for a Writ of Certiorari to the
Missouri Court of Appeals
for the Eastern District

BRIEF OF THE INTERNATIONAL
ASSOCIATION OF DEFENSE COUNSEL
AS AMICUS CURIAE
IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
3,479 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on April 1, 2021.

L.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
